                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A12060045                                                                      Page 1 of 1



                  A PI 1 wrote to the National Science Foundation to withdraw his proposal forprojectrenewae
         and indicated that any unauthorized use of his proposal by the grantee institution3 would be
         plagiarism. The OIG coordinated with the Program Director4 to request information from the grantee
         institution about their plans to maintain compliance with the Proposal and Award Policies and
         Procedures Guide (P APPG). The grantee institution replied that they would submit a letter to
         request a change in PI and withdraw the renewal proposal. Accordingly, this case is closed.




         2




                                        Investigator                                       Date
Affix your signature;                                                                 July 23, 2012
Print your name; insert
date MOl completed.

NSF OJG Form 4 (ll/02)
